om
I

Q@QCKLE

Le g al Bri @ fg E-Mail Address;

contact@cocklelegalbriefs.com.

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-127
ANMARIE CALGARO,
Petitioner,

VS.

ST. LOUIS COUNTY, LINNEA MIRSCH, INDIVIDUALLY
AND IN HER OFFICIAL CAPACITY AS INTERIM
DIRECTOR OF ST. LOUIS COUNTY PUBLIC
HEALTH AND HUMAN SERVICES; FAIRVIEW
HEALTH SERVICES, A MINNESOTA NONPROFIT
CORPORATION; PARK NICOLLET HEALTH SERVICES,
A NONPROFIT CORPORATION; ST. LOUIS COUNTY
SCHOOL DISTRICT; MICHAEL JOHNSON,
INDIVIDUALLY AND IN HIS OFFICIAL CAPACITY
AS PRINCIPAL OF THE CHERRY SCHOOL; ST. LOUIS
COUNTY SCHOOL DISTRICT; AND E.J.K.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE
ASSOCIATION FOR GOVERNMENT ACCOUNTABILITY AND CHILD PROTECTION
LEAGUE AS AMICI CURIAE IN SUPPORT OF PETITIONER in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains
3001 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 23rd day of August, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . .
State of Nebraska : LE Qudraw- ,
My Commission Expires Nov 24, 2020 5

Notary Public Affiant

 

 

38597
